<html>
<title> - PARTNERSHIPS IN SECURING CRITICAL INFRASTRUCTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
            PARTNERSHIPS IN SECURING CRITICAL INFRASTRUCTURE

=======================================================================


                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY
                     AND INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 12, 2008

                               __________

                           Serial No. 110-100

                               __________

       Printed for the use of the Committee on Homeland Security

                                     
[GRAPHIC] [TIFF OMITTED] 


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                     U.S. GOVERNMENT PRINTING OFFICE

43-965 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 Sheila Jackson Lee, Texas, Chairwoman

Edward J. Markey, Massachusetts      Daniel E. Lungren, California
Peter A. DeFazio, Oregon             Ginny Brown-Waite, Florida
Eleanor Holmes Norton, District of   Gus M. Bilirakis, Florida
Columbia                             Paul C. Broun, Georgia
Yvette D. Clarke, New York           Peter T. King, New York (Ex 
Ed Perlmutter, Colorado              Officio)
Bennie G. Thompson, Mississippi (Ex 
Officio)

                     Erin Daste, Director & Counsel

                   Natalie Nixon, Deputy Chief Clerk

                 Coley O'Brien, Minority Senior Counsel

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Transportation Security and Infrastructure Protection.......     8

                               Witnesses

Mr. Douglas B. Arnot, Senior Vice President, Games Operations, 
  Chicago 2016:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Mr. Jeffrey A. Slotnick, President, Setracon, Inc.:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection:
  Letter to Honorable Michael Chertoff...........................     5
  Letter to Honorable Rick Larsen................................     7


            PARTNERSHIPS IN SECURING CRITICAL INFRASTRUCTURE

                              ----------                              


                       Wednesday, March 12, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:18 p.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, Clarke, and Lungren.
    Ms. Jackson Lee [presiding.] The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
partnerships in securing critical infrastructure. Importantly, 
this testimony will include insight into the planning that goes 
into securing critical infrastructure for a global event like 
the 2010 Vancouver Winter Olympics.
    Let me acknowledge the presence of my friend and colleague 
from New York, Congresswoman Clarke, and indicate that the 
Ranking Member has been detained. However, he will be arriving 
shortly. At that time, we will allow him to give his opening 
statement.
    Importantly, this is a vital hearing, and I welcome the 
witnesses. I would like to take this opportunity to thank all 
of you for joining us again this afternoon. We are here to 
learn about the preparations that are going into securing 
critical infrastructure in advance of the 2010 Winter Olympics 
in Vancouver. Some might ask why this should be a topic to be 
addressed by this subcommittee. The importance to us is that 
the Vancouver games will be a mere 30 kilometers from the U.S. 
border, and planning, preparation and response measures must be 
in place on our side of the border.
    We are certainly reminded of the attempt by an alleged 
terrorist that walked across the border at the turn of this 
century. So this is an important challenge that we have before 
us.
    Between February 12, 2010 and February 28, 2010, it is 
estimated that 1.8 million tickets will be sold for the events 
and that 250,000 visitors will attend. Three billion people are 
expected to watch or to view this world event on television. 
Because the games are being held so close to the United States, 
there will be a heavy reliance on U.S. infrastructure. 
Washington State will provide key transportation access and 
overflow accommodations for the event.
    Seattle-Tacoma International Airport will be used 
frequently as an alternate airport to direct flights into 
Canada. The games will also mean more travel on Washington 
State highways, passenger rail lines, airlines and ferries. 
Certainly, we welcome this opportunity, but it would be foolish 
if we did not focus on how do we secure the homeland. That is 
the responsibility of this committee, and I thank Chairman 
Thompson for his leadership. I thank my colleague, Ranking 
Member Lungren, for working with us for this important hearing.
    U.S. resources will be stressed during the games and the 
need for these resources will be exacerbated in the event of 
some sort of attack. For this reason, essential planning is 
necessary to ensure that proper prevention and response 
procedures are in place on the U.S. side of the border. The 
purpose of this hearing is to begin a discussion about the 
efforts underway to secure the 2010 Vancouver Olympics.
    This hearing is intended to be fact-finding hearing, where 
we learn from people deeply involved in planning for Olympic 
events about what needs to be done and what role DHS should 
have in securing critical infrastructure. This hearing will 
allow members to acquire knowledge from experts about the steps 
to be taken and the questions to be asked.
    In short, this hearing will not complete the subcommittee's 
activities on this important topic. It lays the groundwork for 
activity ahead that will attempt to move DHS in the right 
direction of better coordinating planning and response 
activities prior to this global event. As we all know, the 
Olympic Games have been the site of terrorist activity dating 
back over 3 decades, most notably the Munich massacre, which 
occurred in 1972 at the Summer Olympics in Germany--an 
absolutely atrocious and violent event that woke the world up 
in a tragic way. Eleven Israeli athletes and one German police 
officer lost their lives.
    So we know that this is not impossible. This is not a 
question of the possibility of the possible. This is a question 
of being prepared for what has already happened and what could 
happen in the future. During the Atlanta Games in 1996, at a 
late-night concert in the town square of the Olympics, Eric 
Robert Rudolph placed a green military knapsack containing 
nails and three pipe bombs at the crowded event.
    Two people were killed and 111 were injured from the pipe 
bomb explosion. As Rudolph later said, he acted for political 
reasons. This means that this is an open and viable 
possibility. We do not encourage terrorist acts, but we 
certainly need to be prepared.
    This past weekend, Chinese police allegedly thwarted a 
planned attack on the Beijing Olympics scheduled for this 
summer by a group based in Western China. State-run Xinhua News 
Agency quoted government officials as saying----
    Although it has not been independently corroborated that 
these individuals were in fact terrorists, this event 
reinforces that individuals may attempt to make political 
statements through violence at the Olympics in Vancouver. In 
its role to prevent, protect and coordinate responses to 
disasters such as acts of terrorism, DHS has designated a DHS 
Federal coordinator whose tasks is coordinating the security 
plans of the DHS components in preparation for the games.
    However, some have suggested that this coordinator has not 
played a prominent role in any planning effort. An over-arching 
complaint among stakeholders in the State of Washington is the 
lack of involvement of DHS personnel in assisting with the 
planning efforts that may be necessary to employ if an event at 
Vancouver cascades and negatively affects U.S. infrastructure.
    There are several potential problems that have been 
identified as causes for concern as we move forward to 2010: 
lack of planning efforts ahead of any potential terrorist 
activity; lack of procedures in place if Canada shuts down its 
border; lack of status review regarding mutual aid agreements 
between the United States and Canada--and might I add, if the 
borders shut down, what is the viability of ingress and egress 
even for escape or some need to provide security to our 
homeland?; lack of knowledge about the consequences of a port 
being shut down; and lack of understanding of how the 
interoperability of radios is functioning between stakeholders. 
That is an important challenge that we have to be concerned 
about.
    The Governor of the State of Washington created the 2010 
Winter Olympic Task Force and it includes a Security 
Subcommittee Task Force. Most of the planning efforts carried 
out within the United States are done by this entity. DHS 
published a report required by Congress entitled Report to 
Congress on the 2010 Olympic and Paralympic Winter Games on 
June 22, 2007. I would like to introduce that report into the 
record.
    This report required DHS to report on expected increases in 
border flow, necessary enhancements to border security, 
estimated border crossing wait times, and any need for 
increased border personnel. The report recognizes that 
significant progress is necessary for the United States to know 
how the United States prepares for a large-scale special event 
occurring in the immediate vicinity of its international 
borders.
    Key issues discussed in the first section of the report 
include Washington State's role providing critical 
transportation access to the 2010 Olympic and Paralympic Winter 
Games. Key issues discussed in the second section of the report 
include technical interoperability challenges such as the 
significant impact that multi-jurisdictional agencies have on 
frequency and band width used and the need for coordination and 
interoperability both technical and operational, and the need 
to involve Canadian and U.S. frequency licensing agencies early 
in the planning process.
    So this hearing is about planning and preparedness. In a 
letter from members of the Washington State delegation to 
Secretary Chertoff dated December 21, 2007, members inquired 
about steps taken to implement recommendations in the report, 
as well as what sources of funding exist to ensure that 
implementation is successful. In a response dated February 4, 
2008 and surprisingly signed by the assistant secretary for 
legislative affairs, the concerns of members were not 
addressed.
    The concerns were: the creation of an integrated Federal 
support plan; the creation of a multi-year training and 
exercise plan and schedule; a plan by CBP to meet anticipated 
impact of increased border flow at domestic airports, seaports, 
rail stations and bus terminals, including the expected 
displacement effect; a plan by CBP to ensure border wait times 
at ports of entry do not exceed the current average peak wait 
times, including opening of additional lanes and augmentation 
of temporary duty officers; an operational and funding plan to 
establish a brick-and-mortar multi-agency coordination center 
close to the border; an integrated interoperability plan to 
support the 2010 Olympic mission using the SAFECOM 
interoperability continuum to develop a robust interoperability 
solution.
    Until these vital issues are addressed by DHS, we cannot 
rest assured that the 2010 games will be secure. In fact, we 
cannot rest assured that we have a plan that ensures that this 
homeland of the United States is secure, working in cooperation 
with the Canadian government. As this subcommittee continues to 
investigate the efforts in Washington State, we will eagerly be 
looking for DHS, including Secretary Chertoff, to show us that 
it has the security situation well in hand.
    At this time, I would like to ask unanimous consent to 
enter into the record the DHS report to Congress on the 2010 
Olympic and Paralympic Winter Games, and we will do that again 
when the Ranking Member is present. We will add that as an 
admitted document, but we will repeat that.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    I would also ask unanimous consent to enter into the record 
the two letters, the first by members of the Washington State 
delegation to Secretary Chertoff, inquiring about 
implementation of the previously mentioned report; and the 
second is the response to the Washington delegation by DHS. 
Again, I am offering to enter this into the record by unanimous 
consent, and we will submit that again when Mr. Lungren is 
present.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Jackson Lee. Once again, I would like to thank everyone 
for their participation today. I look forward to hearing from 
our witnesses. As I indicated, Ranking Member Lungren will be 
in, but at this time this committee will stand in recess for 
the vote, and we will return in a moment. I thank the witnesses 
for their indulgence. Thank you.
    [Recess.]
    Ms. Jackson Lee. The subcommittee will now come to order.
    It will be my pleasure to now recognize the Ranking Member 
of the subcommittee, the gentleman from California, Mr. 
Lungren, for an opening statement for 5 minutes.
    Mr. Lungren. Thank you very much, Madam Chairwoman.
    I am glad we were able to finally get here. It takes me a 
little bit longer these days. I share your interest and concern 
over the challenges the Nation faces securing our critical 
infrastructure. Unfortunately, it will be a never-ending 
struggle due to our country's many critical infrastructure 
assets scattered from coast to coast. As we know the 2010 
Winter Olympics will be held in Vancouver, Canada, which 
creates terrorist opportunities similar to those which have 
been exploited in the past. A world stage, enormous crowds, 
multiple venues and close proximity to the U.S. border presents 
an attractive target to the twisted terrorist mind.
    This is a very serious issue which should be examined in a 
bipartisan manner. I am sorry the hearing was only noticed less 
than a week ago, and that I did not have warning about it. 
Hopefully, we can have future hearings with Republican input. 
The Vancouver Olympics certainly deserves more attention than 
we are able to provide this afternoon.
    I would hope that we could have the Department of Homeland 
Security, which has the Federal responsibility of protecting 
our critical infrastructure; the Coast Guard, which would play 
a key role securing U.S. ferries, waterways and ports for 
citizens traveling to and from Vancouver; and I wish we would 
have reached out to the 2010 Olympic Committee core group, 
which is currently planning for the Vancouver games.
    As I understand it, in fact yesterday, a tabletop exercise 
was conducted at Camp Murray, Washington for the 2010 Olympic 
Security Committee Core Group and liaison agencies from 
Federal, State and local security partners. This first tabletop 
exercise is attempting to identify gaps in the initial standard 
operating procedures, future training goals, communications and 
coordination center needs.
    As I understand it, DHS Federal Coordinator Mark Beatty 
also participated. I hope that the chairwoman would agree we 
need to examine the issue in a more comprehensive fashion. The 
Vancouver Olympic threat deserves no less than our best 
congressional bipartisan oversight efforts. I look forward to 
hearing from the witnesses we have here today.
    Thank you.
    Ms. Jackson Lee. We wanted to resubmit documents that we 
ask unanimous consent to submit into the record. That would be 
the report to Congress on the 2010 Olympic Winter Games by the 
U.S. Department of Homeland Security. I ask unanimous consent. 
With no objection, it will be submitted into the record.* Then 
two letters,** one dated December 21, 2007 to Michael Chertoff 
by the Washington State delegation, and one dated February 4, 
2008, the response of the Department of Homeland Security to 
the Washington delegation from the Homeland Security 
Department. We ask unanimous consent. Without objection, they 
will be submitted.
---------------------------------------------------------------------------
    * The information has been retained in committee files.
    ** Previously submitted and included in the hearing record.
---------------------------------------------------------------------------
    Let me indicate to Mr. Lungren that we look forward to 
building on your comments. I think they are important comments 
on expanding this research. Of course, we noticed the hearing 
in the appropriate time, and we will look forward to the 
minority staff in future hearings. Mr. Lungren is correct that 
there is a top-off going which I applaud, frankly, because that 
will give us an opportunity in our future hearings to ensure 
that we have representatives engaged in that top-off, and again 
being able to ask them the hard questions about coordination.
    So we are grateful to the witnesses that are here today. 
That will simply lay the groundwork for our future hearings, 
because with the Olympics in 2010, we certainly have our work 
cut out for us, and certainly a period of time in which we must 
move forward on these issues.
    With that in mind, let me remind any other Members of the 
subcommittee that under the committee rules, opening statements 
may be submitted for the record.
    I now welcome our panel of witnesses. Our first witness, 
Mr. Doug Arnot, is senior vice president, games operations, 
Chicago 2016. Mr. Arnot served as security lead for the Salt 
Lake Olympic Games, overseeing all games operations. He is 
presently developing the security plan for Chicago's bid for 
the 2016 games.
    Our second witness, Mr. Jeff Slotnick, is a security 
industry consultant with more than 26 years of experience in 
providing professional development and training to security, 
law enforcement, military personnel, and conducting 
comprehensive security risk assessments. Mr. Slotnick is a 
member of the Washington State governnor's Homeland Security 
Council on the Infrastructure Protection Subcomittee, and the 
Security Subcommittee Task Force of the 2010 Winter Olympic 
Task Force.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his statement for 5 minutes, beginning with Mr. Arnot. 
Gentlemen, I would offer to say that your testimony is in fact 
timely, as we indicated in the backdrop of operational planning 
and top-off activities going on in the region. So we thank you 
for your presence here today.
    Mr. Arnot.

  STATEMENT OF DOUGLAS B. ARNOT, SENIOR VICE PRESIDENT, GAMES 
                    OPERATIONS, CHICAGO 2016

    Mr. Arnot. Thank you very much, Madam Chairwoman and the 
honorable Member from California. I appreciate the opportunity 
to address this subcommittee. I genuinely appreciate the study 
that each of you has apparently given to this matter. It is 
clear that you have a significant understanding of the 
challenges that face the securing of an Olympic games, the 
infrastructure around it, and the areas around it.
    Very briefly, the Department of Homeland Security report 
began to capture the magnitude and complexity of the games. Not 
to go too deep into all of the statistics, but about 7,000 
athletes and officials, 80 countries, 1.8 million tickets, and 
there will be about 500,000 general spectators. The media will 
be about 10,000. The media sub-center and the main 
international broadcast center for the games will be about the 
size of CNN and 30 Rock combined.
    There are about 25,000 volunteers that will work at the 
games. The athletes' village, just for your little statistic of 
the day, will probably serve somewhere in the neighborhood of 
about 250,000 meals, all for the various varieties of diets for 
the athletes during the games.
    The games, in short, whether summer or winter, are really 
the largest peacetime events in the world. The size and 
complexity are matched only by the worldwide attention and 
scrutiny. As each of you has noted, the games are an attractive 
target and need to be protected as such.
    The target is actually growing larger. With each 
consecutive games, you not only now have the games venues, but 
what is built around the games--the live sites, the 
entertainment centers, the sponsor hospitality. So the number 
of ticketed spectators ends up being about 25 percent of the 
people who will actually participate in games activities.
    The security period itself for the games extends well 
beyond the period of the 16 days of the games. The security 
period is generally around 60 days, and I would urge us all to 
recognize that the security period includes not only the 
Olympic Winter Games, but the Paralympic Winter Games.
    No post-community can handle the security of the games 
alone. It needs to be supplemented significantly, and the 
public safety forces in the region will need the help obviously 
in Canada of significant Federal support, as has been the case 
in the United States.
    A clear understanding of the event itself is crucial to 
being able to protect the event. It needs to be provided by 
knowledgeable and experienced games experts and is essential to 
the security planning and understanding of what resources each 
agency can bring to the games. Yet I would urge also that we 
need to understand there needs to be a balance struck between 
the spirit and excitement of the games, and the protective 
needs of the games, between the image, that is, and the 
security needs. Only with a comprehensive understanding of the 
games and exhaustive preparation is this possible.
    I might point out quickly a couple of things which can 
assist in preparation for the games. We can reduce the burden 
in Washington and in Oregon with appropriate interaction from 
more distant ports of entry and the communication back and 
forth between those ports of entry and the organizing 
committee, as well as the forces in the United States. We 
should also understand that travel profiles can be established 
and border demand anticipated. That will help a great deal. 
That information can again be developed with the VANOC group.
    Public information programs detailing what Olympic 
travelers can expect and how they can facilitate their own 
cross-border travel must be balanced with the threat 
assessments and properly adjusted security policies and 
procedures. There are also other concepts--express lanes, off-
hours logistics and freight operations--that will help in the 
efficacy of the operation.
    Finally, I would like to note that throughout the world, 
Olympic athletes and officials and the media that follow them, 
and the many national team officials that support them, enjoy a 
status at international borders in other countries that is the 
near-equivalent of international diplomats. As the United 
States of America has responded to terrorist threats, our 
reputation as a host for travel for international sport has 
deteriorated.
    Re-engaging operations like the 24-hour rapid response 
effort of the United States State Department and INS that was 
developed for the Salt Lake Olympics will help us to monitor 
the travel of the athletes and key officials, and ensure them 
an appropriate travel and ease of transit from the United 
States ports of entry all the way to the Vancouver Games.
    Thank you very much. I stand ready for whatever questions 
you might have.
    [The statement of Mr. Arnot follows:]
                 Prepared Statement of Douglas B. Arnot
                             March 12, 2008
    The U.S. Department of Homeland Security Report to Congress on the 
2010 Olympic and Paralympic Winter Games fairly represents some of the 
baseline statistics that begin to outline the challenge of securing the 
events for 2010. As one of the world's ``super events'' the Olympic 
Winter Games are an extraordinary organization and execution challenge.
    The number of athletes, officials, media, broadcasters, spectators 
listed in the DHS report are part of the picture. The Games will be 
spread over a distance of 120 kilometers stretching from Vancouver and 
Richmond to Whistler Mountain. There will be four venue clusters and 
two Athlete Villages. Some of these areas, particularly the more 
remote, are served by limited public safety resources. So, the 
capability of calling on existing ``reserves'' or off-duty personnel is 
not an option, and the force must be supplemented. As at all Winter 
Games the rugged terrain around the mountain venues calls for special 
attention and the winter weather can be particularly harsh on 
personnel, equipment and infrastructure.
    The Olympic Games attract the attention of the world as no other 
event. Any incident at an Olympics is felt around the world. The Games 
have been attacked twice, and should be protected as an attractive 
target. That target grows larger with each consecutive Games as they 
evolve beyond the sports venues into many major public celebrations, 
attracting an event population that is several multiples of the number 
of ticketed spectators and event support personnel.
    The security period of the Games, with some waves of increasing and 
decreasing activity is about 60 days. The number of places that must be 
secured is well beyond the obvious competition and key non-competition 
venues. Live sites, medal ceremonies, concerts, sponsor events, and 
much more, expand the event and the job of securing the event.
    Of course, all of the Games-related activity is added to the normal 
activity of the host city/region and so, as noted, the resources needed 
to secure the host city/region grows well beyond the local resources 
regularly available for public safety. Thus, I am sure that Canada is 
planning significant Federal support such as that which was provided 
and absolutely necessary for the 2002 Olympic and Paralympic Winter 
Games.
    Arguably the most critical aspect of securing the Games is adopting 
a command and control structure that will serve the Games in planning 
and preparation as well as in execution of the plan. In Games prior to 
Salt Lake, planning by public safety agencies for Games Security tended 
to exclude a major player, the event itself. Yet, a clear understanding 
of the event, provided by knowledgeable and experienced Games experts, 
is essential to Security planning and an understanding of what 
resources each agency and organization can provide to the plan.
    Early planning for Salt Lake City was similarly isolated from the 
event. Inexperienced local planners worked in an information vacuum. 
But, over time, an extraordinary new model was developed. It was a 
complex private, public partnership of local, State and Federal 
agencies, the United States Military and the Organizing Committee that 
structured a plan that was strong enough that it required little 
modification after 9/11. It was the seemingly endless integration work 
sessions, with key agencies and the Organizing Committee at the table, 
that developed the appreciation and understanding of roles, 
responsibilities, resources and procedures for the routine, as well as 
the exceptional, that made the security operation at the 2002 Olympic 
Winter Games a success. A similar approach is suggested for planning 
the U.S. operations for 2010.
    One apparent challenge for 2010 is to secure the Northwest border 
States without unduly disrupting the experience of Olympic visitors or 
the lives and commerce of the region. To achieve this, the security 
force must develop a comprehensive understanding of the event itself 
with which, even at a distance, it will be interacting daily. As 
fundamental as it may seem, an understanding and trust must be 
developed in order for each agency and organization to develop an 
appreciation for the task and challenge of the others so that a 
balanced, team plan can be developed.
    The DHS report logically focuses on the Washington, Idaho and 
Montana borders. But, the burden at those points can be reduced with 
appropriate interaction with more distant ports of entry in other parts 
of the United States of America. An Olympic Travel plan such as that 
developed for Salt Lake should be considered. Working with the 
Organizing Committee, information about athletes, media, broadcasters, 
and officials was developed and shared with multiple ports of entry 
into the United States of America. The same was done for sports and 
broadcast equipment that is critical to the Games. There was also the 
appointment of intermediate airports for private aircraft inspection, 
again reducing the burden on the ``Olympic Zone''. This might be 
considered for air traffic in traveling north as well as south.
    Working with the Vancouver Olympic Organizing Committee, a detailed 
understanding of event schedules and crowds should be developed. Travel 
(USA Re-entry) profiles need to be studied and border-demand 
anticipated. Public information programs detailing what Olympic 
Travelers can expect and how they can facilitate their own cross-border 
travel must be balanced with threat assessments and properly adjusted 
search policies and procedures. The operation will need well-trained 
personnel supported by information and communication. It is suggested 
that concepts such as express lanes, and off-hours logistics and 
freight operations may reduce the peak hour burdens and add to search 
efficacy. The Winter Games present unique challenges posed by terrain, 
and weather. This should be accounted for in all planning, especially 
for a State-side response to an exceptional incident in Canada that 
could prompt an unanticipated early, mass departure from the event.
    Throughout the world, Olympic athletes and officials, the media 
that follow them and the many national and team officials that support 
them enjoy a status at international borders that is the near 
equivalent of international diplomats. As the United States of America 
has responded to terrorist threats, our reputation as a host or travel 
hub for international sport has deteriorated. By re-enaging operations 
like the 24-hour Rapid Response effort of the U.S. State Department and 
INS (developed for the Salt Lake Olympics) we can monitor the travel of 
athletes and key officials and ensure them an appropriate welcome and 
ease of transit from a U.S. port of entry all the way to the Vancouver 
Games.
    These practices helped the United States of America to avoid what 
could have been very damaging international press reports of athletes 
or officials in holding cells waiting resolution of entry status. To 
the contrary, the hard work on entry procedures set the tone for a Salt 
Lake Games that many hailed as the best Winter Olympics ever. With 
information, communication and cooperation we can facilitate travel to 
the 2010 Olympic Winter Games without jeopardizing our national 
security. As the United States of America seeks the honor of hosting 
the world in 2016 in Chicago, we can enhance our place among sport-
loving nations of the world.

    Ms. Jackson Lee. I thank the witness for his testimony.
    The next witness, thank you very much. You are recognized 
for 5 minutes.

  STATEMENT OF JEFFREY A. SLOTNICK, PRESIDENT, SETRACON, INC.

    Mr. Slotnick. Madam Chairwoman, and the gentleman from 
California, I stand here today to inform you of my impression 
of security, critical infrastructure, preparedness and response 
capabilities in preparation for the 2009 World Fire and Police 
Games, 2010 Olympics and 2010 Paralympics. Based on my 
experience, I can seriously tell you we are not prepared.
    The safety and security of the United States is at risk if 
we do not take direct action. There are tasks identified by DHS 
in their congressional report, some of which have not been 
completed, and 11 additional tasks that must be accomplished to 
ensure a safe and successful event.
    The DHS report to Congress on the games identifies gaps 
which must be addressed prior to the Olympics. It is my 
impression that precious little has been accomplished in the 
way of Federal preparation and support, although tremendous 
strides have been made on a State level with minimal funding. 
The World Fire and Police Games commence in 14 short months. 
The DHS Special Events Working Group promised a comprehensive 
risk, threat and vulnerability assessment. This essential 
planning document has not yet been prepared.
    The Pacific Northwest has a higher threat of disaster. We 
are susceptible to a variety of potential catastrophic 
incidents, including earthquakes, volcanic eruptions, flooding, 
terrorism, epidemics and fires. These are exacerbated by the 
geographic constraints of the population centers, bordered by 
the Pacific Ocean on the west and the Cascade Mountain range on 
the east.
    In its current status, the 2010 Olympics has been federally 
designated as a special event. In past year, the Academy 
Awards, Superbowls, and 2002 Winter Games were given the higher 
designation of national special security events. Many of these 
were only 2 to 4 hours in duration. The 2010 Olympics will be 
conducted over 14 days and seen by 3 billion viewers, seconded 
only by the Summer Olympics.
    The Pacific Northwest has significant private sector 
assets--Boeing, Microsoft, Starbucks and Washington Mutual are 
national or global in nature and possess significant 
intelligence assets. In many cases, individuals in these 
organizations have higher security clearances than law 
enforcement officials. It would be unfortunate not to 
capitalize on these assets through the framework established by 
the Northwest Warning and Response Network.
    These companies and others have significant physical assets 
that will be impacted by Olympic traffic. They must move 
supplies, materials and personnel in support of business 
operations. The impacts will be significant in the case of a 
manmade or natural disaster.
    A robust information intelligence-sharing process can 
prevent an attack by discovery in the early planning stages. 
This is best accomplished through a process which includes 
vetted public and private professionals in all critical 
infrastructure sectors. Additionally, our intelligence-sharing 
abilities with our Canadian partners needs to be enhanced and 
tested.
    Recent flooding in Lewis County closed down all lanes of 
Interstate 5 for 4 days. This closure had an estimated economic 
impact of $5.8 million per day. From this, we can only 
extrapolate what the financial impact might be of a major 
event. The best way to limit significant expense is to rapidly 
respond, mitigate and recover from an emergency. Costs become 
exponential each day an emergency continues. To prevent this, 
we must enhance the State's capabilities developed through 
General Lowenberg's excellent efforts.
    The DHS report does not address border issues for emergency 
operations. It is imperative that medical, fire and police 
resources have prearranged agreements for expedited border 
crossings in both directions. In regards to nurses, doctors, 
and medical personnel, there are union issues which must be 
considered. Although identified in the congressional report, it 
is not apparent what progress has been made at the Federal 
level to enhance the interface between the United States and 
Canadian Customs authorities.
    I have noted 11 areas for improvement. We should upgrade 
the 2010 Olympics and associated games to a national security 
event; provide Federal support for funding, training and 
exercise of NWWARN; permit participation in intelligence and 
information process of professionals; fund exercises to support 
greater interoperability of intelligence assets between 
Washington Fusion Center and Canadian authorities; provide 
funding for training of private security officers and police 
officers in surveillance detection; fund exercising of the 
Pacific Northwest Emergency Mutual Aid agreements; complete the 
SEWG threat and vulnerability assessment; fund tabletop 
exercises which include participation from all sectors from 
both sides of the border; plan for border crossings during 
emergency situations; develop prearranged border-crossing 
agreements for medical and fire personnel; and develop 
protocols for expediting mass transit through the border.
    The return on investment for this funding and support is 
the development of best practices which will directly impact 
the safety and security of the Pacific Northwest and 2010 
Olympics. The lessons learned will have national relevance as 
other States and event planners can benefit from our 
experiences and best practices.
    Dealing with future catastrophes is not easy. It requires 
time and commitment. Commitment in the Federal Government means 
establishing priorities for action through funding. Only when 
this is seen, will collaborative plans have a reasonable chance 
of successful implementation. PNWER is a unique organization, 
statutorily viable in several northwest States and the Canadian 
provinces. It has a proven track record through its Center for 
Regional Disaster Resilience to expedite these processes and 
significantly impact preparedness through its ability to 
develop collaborative solutions between the public and private 
sectors.
    Pending your questions, this concludes my testimony. Thank 
you.
    [The statement of Mr. Slotnick follows:]
               Prepared Statement of Jeffrey A. Slotnick
                             March 12, 2008
    Ms. Chairwoman and Members of the subcommittee, first and foremost 
I want to thank you for this opportunity you have provided me as a 
citizen of the United States of America to impact the safety and 
security of our great Nation and specifically the Pacific Northwest.
    You have seen the biography I provided so I will not take time with 
my professional bona fides. I do have a brief story to recount: In 1985 
while I was still serving in active military service I was returning 
from a 5-year overseas tour in Europe where I experienced terrorism 
first-hand through the activities of the Bader Mein Hoff Gang, the 
Italian Red Brigade, the 1983 bombing of the Marine Barracks in Beirut, 
and the day I will never forget as I watched in June 1985 the hijacking 
of TWA Flight 847 in which a 23-year-old U.S. Navy diver, Robert Dean 
Stethem, of Waldorf, MD, was shot and dumped on the tarmac of Beirut 
International Airport. These events fundamentally changed my outlook on 
the world and put me on a course that has led to me speaking with you 
today.
    You may ask why do I invoke these memories--well in 1985 as I 
returned to the United States through Kennedy International Airport I 
looked around and said to myself, We are not ready, doesn't anybody 
watch the news? I retired from military service late in 1992 and 
watched in horror as the World Trade Center was destroyed in 2001.
    I stand here today to inform you of my impression of security, 
critical infrastructure preparedness, and the response capabilities of 
the Pacific Northwest in preparation for the 2009 World Fire and Police 
Games, 2010 Olympics, and 2010 Para-Olympics and based on my experience 
I can seriously tell you that we are not prepared.
    The safety and security of the 2010 Olympics and the United States 
is at risk if we do not take direct action. There are tasks that were 
identified by DHS in their congressional report, some of which have not 
been completed, and eleven additional tasks I will identify that must 
be accomplished to insure a safe and successful event.
    I have lived in the Pacific Northwest for almost 22 years and 
during that time I have served on numerous Homeland Security-related 
committees, personally conducted Risk, Threat, and Vulnerability 
Assessments for two counties, Transit Facilities, water and sewer 
utilities, private corporate facilities, and educational facilities.
    Additionally, I have participated as a planner and evaluator for 
several Blue Cascades Critical Infrastructure Interdependency Exercises 
held by the Pacific Northwest Economic Region (PNWER). Additionally, I 
have been involved in writing initiatives and breaking down barriers in 
support of public/private partnerships in information sharing and 
intelligence. Most recently I was an active participant in the recent 
floods in Lewis County which closed down Interstate 5 for a period of 
several days.
    I am an industry professional who has a ground-up view and I wish 
to share that with you today. I am going to provide information on 
several critical areas, they are:
  <bullet> Public/Private Interoperability Issues;
  <bullet> Critical Infrastructure Preparedness and Regional Disaster 
        Resilience;
  <bullet> Expedited Border Crossing Issues.
    The U.S. Department of Homeland Security Report to Congress on the 
2010 Olympic and Para-Olympic Winter Games identifies many gaps and 
shortfalls which must be addressed prior to the 2010 Olympics. As I 
have experienced in local meetings and read in various Federal 
documents precious little has been accomplished in the way of Federal 
preparation and support although tremendous strides have been made on a 
State level with minimal funding.
    The 2009 World Fire and Police Games will be held also in 
Vancouver, and provide an opportunity for us to plan and test our 
preparedness for the Olympics.
    The World Fire and Police Games which commence in 14 short months 
and will bring athletes, spectators, and support staff from all over 
the world to the Pacific Northwest.
    As we speak winter Olympic teams are already arriving in the 
Northwest for practice and preparation.
    To this end the DHS Special Events Work Group (SEWG) promised to 
provide a comprehensive risk, threat and vulnerability assessment. This 
is a critical document as security planning and decisions are based in 
risk and risk is calculated from threat. This essential planning 
document has not yet been prepared.
    Different from other Olympic Events the Pacific Northwest has a 
considerably higher threat of disaster. We are susceptible to a variety 
of potential catastrophic incidents (indeed, these are more than 
potential--most have occurred in the recent past): Including 
earthquakes; volcanic eruptions with a lahar flow possibility; 
flooding; hurricane-force windstorms; domestic and foreign terrorism; 
epidemics; tsunamis; fires; hazardous materials disaster; landslides; 
and tornadoes. These events--and the problems associated with any 
response to them--are exacerbated by the geologic and geographic 
constraints of the main population centers (Seattle, Tacoma, Portland, 
Vancouver) which are bordered by the Pacific Ocean on the west and the 
Cascade Mountain Range on the east. These geographic features create 
what has become known as the I-5 corridor.
    In its current status the 2010 Olympics has been federally 
designated a ``Special Event''. In past years the Academy Awards, Super 
Bowls 2002 to 2008, and 2002 Winter Olympics were given the higher 
designation of ``National Special Security Events''. Many of these 
events were only 2 to 4 hours in duration. The 2010 Olympics will last 
for 14 days and be seen by over 3 billion viewers seconded only by the 
Summer Olympics.
    Given the above information I ask that you consider upgrading the 
designation of this event to ``National Special Security Event''.
                   public/private information sharing
    The Pacific Northwest has significant private sector assets. 
Companies like Boeing, Microsoft, Starbucks, and Washington Mutual are 
national or global in nature and possess significant intelligence 
assets for support of their operations. In many cases individuals in 
these organizations have higher security clearances than many law 
enforcement officials.
    It would be unfortunate not to capitalize on these assets in 
support of the 2010 Olympics through the framework established by the 
Northwest Warning and Response Network NWWARN.
    The best way to prevent an attack is by discovering it in the early 
planning stages. This can best be accomplished through a robust 
Information and Intelligence Sharing process for vetted professionals 
in all critical infrastructure sectors, both public and private.
    Sharing intelligence and warning information with Canada will be 
key in preventing any attack during the 2010 Olympics. In consideration 
of our cross-border Canadian partners this ability needs to be enhanced 
and tested.
 critical infrastructure preparedness and regional disaster resilience
    I was recently involved in flooding of Lewis County Washington 
which closed all four lanes of Interstate 5 for 4 days, 3 to 7 December 
2007 it is estimated this 4-day closure had a regional economic impact 
of $5.8 million per day.
    In the grand scheme of things this was a relatively minor event. 
From this, we can only imagine what impact a major event would have on 
the Pacific Northwest Economy.
    The best way to prevent significant expense is the ability to 
rapidly respond, mitigate, and recover from an emergency event. Costs 
rapidly become exponential each day that an emergency event continues.
    To prevent this we must enhance the States' capacities developed 
through General Lowenbergs' excellent efforts and conduct federally-
supported and -funded cross-border, multi-jurisdictional, disaster 
resilience preparedness exercises that consider critical infrastructure 
interdependencies which could negatively impact the Games, and the 
border.
                       expedited border crossing
    At present there are considerable issues pertaining to cross-border 
movement of people and goods related to the various games. The DHS 
report prepared for the 2010 Olympics identified numerous significant 
issues with border crossing, the report only considers the anticipated 
increases in traffic due to the games. The report does not address 
Emergency Operations in case of a manmade or natural disaster.
    It is imperative that Medical, Fire, and Police resources have pre-
arranged agreements for expedited border crossings in both directions 
should their support be required during the response phase of a 
critical incident. In regard to nurses, doctors, and medical personnel 
there are union issues which must be considered and resolved.
    I have several concerns for non-emergency operations during the 
Olympics including developing protocols for the movement of people and 
goods at the border. To the best of my knowledge not enough effort is 
being made at the Federal level to develop this interface between the 
Customs and Border Patrol, and the Canadian Border Services Agency 
(CBSA).
    Ideally, it is important to develop protocols for mass transit 
carriers such as buses and high-speed ferries.
    To further cut down on Border delays it would be reasonable to 
consider a Park-and-Ride type of arrangement with shuttle busses where 
the benefit is pre-clearance of passengers to expedite border crossing 
during the games.
    Reduced passenger car traffic is very important to the Vancouver 
Olympic Committee (VANOC) as no private cars will be allowed on the 
road to Whistler, not to mention emergency response and potential 
congestion issues. Identified gaps need to be federally addressed, 
especially on our side of the border, with Critical Infrastructure 
owners and operators, Mass Transit carriers, and border officials.
                      eleven areas for improvement
General
  <bullet> Upgrade the 2010 Olympics and associated games to a National 
        Special Security Event.
Information Sharing
  <bullet> Provide Federal Support for funding, training, and exercises 
        for NWWARN.
  <bullet> Permit participation of vetted professionals through NWWARN 
        in all critical infrastructure sectors both public and private.
  <bullet> Include participation by our Canadian partners in 
        information and intelligence sharing.
  <bullet> Fund exercises to support greater interoperability of 
        intelligence assets between the Washington Fusion Center WAJAC 
        and Canadian Authorities.
  <bullet> Provide training for private security officers and street 
        level police officers in Surveillance Detection and Indicators 
        of Deception.
Critical Infrastructure
  <bullet> Fund exercising the mutual aid agreements with (PNEMA) which 
        have not been tested.
  <bullet> Complete the SEWG Risk, Threat, and Vulnerability 
        Assessment.
  <bullet> Fund the development of Table Top Exercises which include 
        participation from impacted sectors specifically owners and 
        operators of critical infrastructure, emergency managers, 
        PNEMA, fire, and police from both sides of the border.
Expedited Border Crossing
  <bullet> Consider and plan for Border Crossings during emergency 
        situations.
  <bullet> Develop pre-arranged border crossing agreements (both ways) 
        for Medical, Fire, and Police personnel.
  <bullet> Develop protocols for expediting Mass Transit through the 
        border by expedited manifests of passenger information.
    The return on investment for this funding and support is the 
development of best practices which will directly impact the safety and 
security of the Pacific Northwest and 2010 Olympics. The lessons 
learned will have national capacity as other States and event planners 
can benefit from our experiences and best practices.
                                closing
    Given the current world situation and based on my experience I feel 
the 2010 Olympics has strong potential to be a global target and at a 
minimum has a higher-than-normal possibility for natural disaster.
    In this light I remind you of the 1972 Olympics where the terrorist 
target was not only twelve Israelis, but the millions of innocent 
viewers worldwide who had terrorism brought right into their living 
rooms as they watched a terrorist event unfold on national television.
    The way forward: Dealing with future catastrophes is not easy. It 
requires time and commitment. Commitment in Federal Government means 
establishing priorities for action through funding. Only when this is 
seen will collaborative plans have a reasonable chance of successful 
implementation.
    The Pacific Northwest Economic Region, of which I am a part, is a 
unique organization that is statutorily viable in several Northwest 
States and the Canadian Provinces.
    PNWER has a proven track record through its Center for Regional 
Disaster Resilience to expedite these processes and significantly 
impact preparedness through it ability to develop collaborative 
solutions between the Public and Private Sectors.
    Through the dedicated efforts of General Lowenberg and his staff, 
the Pacific Northwest economic region, and an involved community the 
framework for successful completion of these actions exists in the 
Pacific Northwest.
    This concludes my testimony.

    Ms. Jackson Lee. Let me thank both of the witnesses for 
their insightful testimony. I will begin the questioning by 
yielding myself 5 minutes.
    May I ask both Mr. Arnot and Mr. Slotnick, based upon your 
expertise in security, and specifically security for the 
Olympics, I want you both to consider these thoughts. In past 
Olympics, what has the role of security been in advance of and 
during the games' preparation? As part of those Olympics, what 
has been the role of the Federal Government? That is, how has 
it been involved in the process? What should be the role of the 
Department of Homeland Security and the rest of the Federal 
Government be doing in preparation for the Vancouver Olympics? 
Is DHS and the rest of the Federal Government providing the 
necessary support?
    I will start with Mr. Arnot. Mr. Slotnick, I do want you to 
answer the question in the context of your remarks which say we 
are not prepared.
    Mr. Slotnick. Yes, ma'am.
    Ms. Jackson Lee. Thank you.
    Mr. Arnot.
    Mr. Arnot. Well, Madam Chairwoman, I think the key role of 
the Federal Government is important to address. I think 
overall, what we are looking at and what was very successful 
finally in Salt Lake City was clearly outlining roles and 
responsibilities for the specific Federal agencies.
    The key lead agency should be the local agency. In the case 
of Utah, it was the Utah State Police. In Chicago, should we be 
fortunate enough to host the games, it would be the Chicago 
Police Department. They need to take the lead in the unified 
command structure, but the Federal agencies can all play a very 
specific role. Secret Service played a very important role in 
terms of developing the infrastructure protection plan, 
particularly as it related to the venues themselves. The 
Federal Bureau of Investigation played key roles in terms of 
intelligence, hostage rescue, and response to terrorist 
activities.
    I could go on with each one of the elements of the command, 
each one of the agencies that was involved. You know well what 
the responsibilities are, but clearly what was successful for 
us in Salt Lake City was to understand the expertise of each 
one of the agencies and apply it appropriately to the command 
structure.
    In the early stages, in advance of the games, the key role 
of the Federal Government actually was to assist in the 
development of the training for all of the agencies that were 
involved and to support financially the training of the local 
agencies. No local agency, as I said in my testimony, is 
prepared to handle the games alone. They need to be 
supplemented by the Federal agencies, and they need obviously 
of course to be able to handle the normal public safety 
responsibilities of their jurisdiction during the games time. 
To handle both that and the games is simply too much for them.
    Ms. Jackson Lee. The Department of Homeland Security did 
not exist.
    Mr. Arnot. That is correct.
    Ms. Jackson Lee. So, was there a coordinating lead agency 
from the U.S. Government.
    Mr. Arnot. From the U.S. Government, the lead agency was 
the United States Secret Service.
    Ms. Jackson Lee. They coordinated with the lead law 
enforcement on the ground?
    Mr. Arnot. They did. They coordinated directly with the 
Utah Public Safety Command, but the Public Safety Command, 
importantly, included all of the Federal agencies, as well as 
all of the State and local agencies. It compelled everybody, 
quite frankly, to sit down in the same room and work through 
together what the details of planning would be, what the 
communication protocols would be, and all of the myriad of 
details for each one of the venues, all of the surrounding 
area, and everything, quite frankly, that dealt with it, from 
the air above to the ground beneath us. It obviously involved 
the U.S. military significantly, too.
    Ms. Jackson Lee. What do you think now with the Department 
of Homeland Security in place, with all of its resources, and I 
imagine tentacles in a lot of emergency preparedness and the 
whole question of providing equipment so there is 
interoperability, what role would you see for the Department of 
Homeland Security?
    Mr. Arnot. I would see the Department of Homeland Security 
taking a role of coordination of the Federal agencies, and 
understanding again what the expertise of each one of those 
agencies is, and being able to oversee each of those agencies 
in handing their roles and their areas of expertise.
    Ms. Jackson Lee. I guess not speaking directly as to what 
is going on in Vancouver and Washington State, did you have 
enough resources during your time, your tenure for the 
Olympics, from the Federal Government? Was there sufficient 
support?
    Mr. Arnot. We did in Salt Lake City. It was late, perhaps, 
in coming, but when it did come, it was adequate.
    Ms. Jackson Lee. Let me thank you for your polite demeanor 
in that it was adequate. We thank you for giving us that 
assessment.
    Thank you, Mr. Arnot.
    Mr. Slotnick.
    Mr. Slotnick. Yes, Madam Chairwoman.
    As far as what should DHS be doing, I think I can summarize 
it by saying providing expertise, funding and being a good 
community partner. I think those are things that are very 
important.
    As I stated, we are talking about the 2010 Olympics, but in 
reality what we are speaking about is the 2009 World Fire and 
Police Games that give us an excellent opportunity to prepare 
and exercise in preparation for the games. In many cases, as 
far as participants, there is a larger attendance from the 2009 
World Fire and Police Games than there are for the Olympics.
    So it would be appropriate to have that funding and have 
that funding up front so that what we are able to do is involve 
the community, get everybody working together so that we have 
this adequate response. The other thing that I see is that 
since the 2010 Olympics is not on U.S. soil, it has been given 
a lesser designation. As Mr. Arnot said, the Utah Olympics was 
designated a lead agency of the U.S. Secret Service. The U.S. 
Secret Service only takes the lead if it is designated as a 
United States special event.
    That is why I would encourage that we change that 
designation to a special event, because we do have significant 
impact within the continental United States as an alternate 
hub, an arrival points, teams coming into practice in the 
Pacific Northwest before the games, and the impact of the 
Americans that will be attending the Olympics. Our 
understanding is that 40 percent of the attendees at the 2010 
games will be Americans, and most of those are expected to come 
through the port of Seatac into Vancouver.
    Ms. Jackson Lee. Thank you. I will have some follow-up 
questions, but my time has expired.
    I am now pleased to yield to the distinguished gentleman 
for 5 minutes for questioning, Mr. Lungren, the Ranking Member.
    Mr. Lungren. Thank you very much.
    Mr. Arnot, you talked about the organizational model 
developed for the Salt Lake City Olympics involving the 
private-public partnerships, local, State, Federal, U.S. 
military, Olympic Organizing Committee. Are you knowledgeable 
about whether or not that is the model that is being used by 
the Washington State Olympics Security Committee?
    Mr. Arnot. I don't have specific knowledge of that, sir.
    Mr. Lungren. Do you, Mr. Slotnick?
    Mr. Slotnick. I do know that in Washington State, we are 
using an ICS-based model. That is the model for all responses 
within Washington State, simply because of our hazard profile, 
being on the cusp of a 9.0 earthquake, we adhere to ICS very 
carefully. I can't imagine that we would use anything but 
unified command for that.
    Mr. Lungren. Mr. Slotnick, you talked about some union 
issues involving doctors, nurses and other medical personnel 
that might somehow interfere with them rendering assistance. 
Can you tell me what you mean by that?
    Mr. Slotnick. Yes. There are some union agreements within 
Canada that prevent our people from actually going across the 
border and responding.
    Mr. Lungren. I see. So it is the cross-border, not any----
    Mr. Slotnick. Yes, it is not a U.S. union issue, but it is 
an issue that needs to be addressed and resolved.
    Mr. Lungren. Okay. You mention in your testimony about your 
background and how we were all shocked at what happened at the 
Olympics in Munich----
    Mr. Slotnick. Yes, sir.
    Mr. Lungren [continuing]. And that sort of thing. 
Obviously, we have a heightened concern for terrorism today, 
coming in our own borders.
    Mr. Slotnick. Yes, sir.
    Mr. Lungren. That has heightened the interest of not only 
this committee, but the entire Congress and the government 
itself.
    What I am trying to find out is the gravamen of your 
complaint about what is occurring now. Is it that it is not 
happening fast enough? You are afraid it is not going to 
happen? Or is it because there has not been a designation of 
the 2010 Olympics as a national special security event that is 
at the core of your concern?
    Mr. Slotnick. I think it is a bit of all of the above, sir. 
My personal perception is that things are not moving fast 
enough. We are 14 months away from the 2009 World Fire and 
Police Games. We have adequate time with the proper Federal 
support to be able to respond adequately and properly for the 
2010 Olympics. But it just doesn't seem to have the impetus 
behind it that it should.
    Mr. Lungren. Let me ask this about, when we talk about 
risk, we talk about threat, we talk about vulnerability, we 
talk about consequence. Threat is primarily, in my judgment, a 
function of us gathering, analyzing and disseminating 
intelligence, and understanding what the bad guys are looking 
at.
    Are you satisfied at this point in time with the level of 
intelligence sharing from the Federal Government to State and 
local authorities with respect to either or both of the 2010 
Olympics or the earlier games, the Police and Fire that you 
have been referring to?
    Mr. Slotnick. At this point, to the best of my knowledge, 
sir, the Security Working Group has not produced their risk, 
threat and vulnerability assessment that would give that threat 
and identify that threat specifically for the Olympics. The 
other thing, as I identified, it is very important that we 
incorporate private sector in this. Private sector has 
significant assets and is going to be directly impacted by any 
event that occurs as a result of the Olympics, whether it is 
something that is caused by a criminal act, or whether it is 
something that happens as a result of natural disaster.
    Mr. Lungren. Let me ask you this, it has been my impression 
that the Northwest, particularly the State of Washington, from 
a standpoint of coordination of local, regional and State law 
enforcement and other first responders, are on what I would 
call the forefront of coordination and collaboration. Is that 
your feeling, that throughout that region there is a real 
effort at a regional approach? And that whether we are talking 
about the 2009 games or the 2010, that it is one of the better 
areas of our country in that regard?
    Mr. Slotnick. Definitely, sir. The Northwest Warning and 
Alert, NWWARN, is leaning way forward in the trenches in that 
regard for coordinating information coming from private sector 
and elevating it to the Washington Joint Analytical Center, 
WAJAC. WAJAC is a tremendous program and does have coordination 
at the upper levels with the Federal intelligence group and the 
JTTF, Joint Terrorism Task Force.
    But it could be better. Again, funding is an issue. General 
Lowenberg has done some significant things with State funding. 
It would be exceptional if we could advance that model and get 
that model up to speed for the 2010 Olympics.
    Mr. Lungren. Thank you very much.
    Ms. Jackson Lee. Thank you, Mr. Lungren.
    Ms. Clarke. Thank you very much, Madam Chair, Ranking 
Member Lungren.
    Gentlemen, thank you for your patience and perseverance.
    Let me just start by asking Mr. Arnot, in your experience 
with Chicago and your previous experience with New York, to 
what extent is security and having a plan in place taken into 
account when the Olympic Committee decides upon a location? Is 
this a significant factor?
    Mr. Arnot. The easy answer is yes, it is a significant 
factor. When the International Olympic Committee makes the 
decision, the security and general public safety of the entire 
Olympic environment is definitely a major consideration on 
their part.
    Ms. Clarke. I wasn't here, unfortunately, for the beginning 
of both of your testimonies, but I wanted to ask either of you, 
since you both have had the experience with security at large-
scale events going back many years, generally speaking has 
security greatly evolved significantly since the 2001 Olympics 
and other such events held in North America? If so, in what 
ways?
    Mr. Arnot. If I could start. The 2002 games established a 
new threshold for us. I think that the bar was raised 
significantly by 9/11, obviously. I think that the model that 
has been established, the work that was done on the 2000 games 
was significant. It would be my own personal opinion that we 
have not seen significant advancement since 2002.
    Ms. Clarke. Mr. Slotnick, did you want to chime in? Is 
there anything that you would vary with Mr. Arnot on?
    Mr. Slotnick. Yes, ma'am, I would concur with that. I think 
since 2001, we have seen considerable growth in security in 
general, and security concerns against criminal acts and 
terrorism. It has been exponential. Of course, since that time, 
the National Incident Management System, the National Response 
Plan, the National Intelligence Plan have all evolved since 
that time and impact how we conduct ourselves and how we plan 
for emergencies and prepare for terrorist acts.
    Ms. Clarke. Then, this question is for either of you as 
well: In preparing for any Olympics, who takes ultimate 
responsibility for security? Is there one organization that has 
the final say and ensures that all security organizations work 
together in a sensible way? Is it the Olympic Committee, the 
government of the host country, the local government? What 
would you say is the command structure around security for 
events of this magnitude?
    Mr. Arnot. I think we would probably both agree that it 
needs to be a unified command structure. At the top of that 
unified command should be the host city, assuming that the host 
city in itself has significant resources. A city like New York 
for the 2012 bid, a city like Chicago for the 2016 bid, would 
take the lead. The other agencies, including the Federal 
agencies, would come in in a designated support role.
    In Utah, it was a bit different because the city of Salt 
Lake itself did not have a very substantial police department. 
So the Utah State Patrol was the lead agency. In each case, it 
was the lead government officer. In the case of Salt Lake, it 
was the Governor. In the case of New York's bid, it was the 
mayor. In the case of Chicago, it would be the mayor who in 
fact is the person in charge of that public safety command.
    Mr. Slotnick. Ma'am, I think of considerable note is that 
this is not an event that is a specific U.S. event. We have the 
cross-border issue, so all the more need for unified command 
and the ability to exercise those commands prior to any event. 
With the actual Olympics being conducted on Canadian soil, but 
significant impact to the United States and U.S. businesses and 
the I-5 corridor, it is just absolutely huge in what we should 
be preparing to do.
    Ms. Clarke. So are you saying that in terms of unified 
command, is it your assertion that the Federal Government 
probably through CPB would also have to be a partner in this? 
Then just in closing, because I know my time is running out, I 
know that the Chairwoman raised the issue of interoperability 
in terms of communication. Have there been any advances to your 
knowledge which would facilitate the emergency preparedness for 
the environment that you are working with right now?
    Mr. Slotnick. We have been working on interoperable 
communications within the State. The ability to communicate 
with the Federal Government has improved, but again we are 
dealing with a cross-border issue. So it is not only our 
ability to communicate within ourselves, but it is our ability 
to communicate with Canadian law enforcement and Canadian 
Federal Government even for normal operations, let alone during 
an emergency.
    Ms. Clarke. Thank you very much, Madam Chair.
    Thank you, gentlemen.
    Ms. Jackson Lee. I thank the gentlelady for her thoughtful 
questions. I would like to pursue those questions, so I yield 
myself an additional 5 minutes for an abbreviated second round.
    Again, let me suggest that this is both instructive and I 
think it opens the door for future hearings for those who are 
presently in the top-off and presently engaged. But let me 
raise this question. As you well know, I gave a list of 
concerns when I gave my opening remarks, having to do with the 
2010 Vancouver Olympics. I would like to again raise them with 
you for your thought and analysis by both witnesses, and Mr. 
Arnot first.
    I am concerned about expedited border closings during the 
games, and what would happen if we would have to close the 
borders; intelligence fusion across borders and within 
governments, the way of communicating intelligence quickly; 
radio interoperability, which my colleague mentioned just a 
moment ago; and the need for a multi-agency coordination 
center; and what roles should DHS play in support of these 
efforts.
    Now, I would appreciate as I have looked over the landscape 
of large events, Mr. Arnot, the Olympics are not the only large 
events that we confront every day here in the United States. I 
know that the NASCAR is continuously happy, the throngs of 
individuals that they put in a stadium almost on a weekly 
basis. Likewise, so is the Superbowl thrilled with their 
numbers, whether it is the NBA All Stars or playoffs--these are 
large-number venues.
    So please incorporate in your answer your thoughts about a 
breakdown or a break-out or a segregated--``segregated'' is not 
right--but an actual designated assistant secretary or 
component of DHS to deal with large events, so that there is a 
point person that is collaborative, that is coalescing, that is 
working, even thinking, if you will, way ahead of the time when 
we have to address these sometimes very thorny questions.
    Mr. Arnot, I mentioned the expedited border crossings, 
intelligence fusion, radio interoperability. I think you heard 
all my points.
    Mr. Arnot. Madam Chairwoman, thank you.
    I think the notion of expedited border crossings--the 
notion that we have the appropriate personnel at the border 
crossings now to be handled an expedited border crossing I 
would assume from Canada into the United States, especially in 
the event that there would be some kind of a significant 
incident surrounding the games and what that would do to the 
general psyche of the people who were at the games, obviously 
being able to have the appropriate number of people at the 
border closings I think is, as the distinguished representative 
from Washington noted earlier, the idea that that is supported 
by appropriate medical personnel and other support personnel is 
something absolutely to take a look at.
    Intelligence fusion--intelligence is absolutely the first 
key to the security of the games or any large event. The 
sharing of intelligence back and forth between the United 
States and Canada is something that absolutely needs to be 
looked at with regard to the event. The development of fusion 
centers for this particular event, if it has not already 
happened, it something that I would suggest should be 
researched.
    Radio interoperability--your operation is only as good as 
your information. Your information is only as good as your 
communication. Your communication is based on your 
communications equipment. You can't operate if you don't have 
interoperability of your communications equipment.
    I was very impressed, Madam Chairwoman, with your 
understanding of the spectrum demands on an event like this, 
especially when they are crossing borders and we are dealing 
with different Federal agencies, and the control of those 
spectrums.
    The multi-agency coordination center--regardless of the 
fact that this event is in Canada, if the United States is 
going to be able to address the threats that might be posed by 
this event to the United States, it would be suggested that a 
multi-agency task force be assembled and that they are in one 
place able to communicate and work with each other on a regular 
basis.
    Your question about the threat assessment to other events I 
think is also quite wise. On any given Saturday in the fall, we 
have dozens of stadiums across the United States with 50,000, 
60,000, 70,000, 100,000 people. Each of the State and local 
agencies have done a good job between 2002 and today in terms 
of stepping up what they can do individually to protect those 
areas. The job is enormous. The risk is significant. The 
threat, because of the numbers of people alone, is something 
that bears some consideration.
    I think that the notion of having someone or an office 
within the Department of Homeland Security that is able to 
review those events on a regular basis, preview the events on a 
regular basis and be able to address Federal support that might 
be deemed necessary, I think would be prudent.
    Ms. Jackson Lee. Let me, before I go to Mr. Slotnick, Mr. 
Arnot first of all thank you for bringing your vast range of 
knowledge and disparate knowledge, different venues that you 
have either consulted on or actually been operationally 
involved in and in charge. In the games in Atlanta and Salt 
Lake, did you have direct contact with security so that as you 
are managing whether or not an athlete has gotten on the bus 
and has gotten to the venue for his or her particular skill, 
did you feel that you had either the walkie-talkies, whether e-
mail was sufficient at that time, but the direct contact with 
the principals dealing with security?
    Mr. Arnot. Madam Chairwoman, in Atlanta, the answer is no, 
we did not. Atlanta was a challenge from a number of different 
perspectives. The advancement of the planning from Atlanta to 
Salt Lake was very significant. I will tell you that I felt 
that during the Salt Lake Games, I could get to the information 
in a relatively short period of time. In the case of an 
emergency, that short period of time may not have been short 
enough. The communications equipment and the varieties of 
communications equipment that we were working with at that time 
would have allowed us--the protocols were there, the 
cooperation was there, the will was there, but the way was not 
necessarily there.
    Ms. Jackson Lee. Let me let Mr. Slotnick finish, and I will 
then yield very quickly to Ms. Clarke for a question that she 
has as well.
    Did you remember my questions?
    Mr. Slotnick. Yes, ma'am, I did.
    Ms. Jackson Lee. Thank you, Mr. Arnot, very much. That was 
a very important response. Thank you.
    Mr. Slotnick. As to expedited border crossings, I think 
this is very important to include private sector. The Pacific 
Northwest economic region through their Blue Cascades exercises 
has done quite a bit to conduct gap analysis and identify 
alternatives for emergencies and for natural disaster.
    I think the same model would be applied to looking at 
issues with border crossing in a collaborative effort, how we 
might expedite certain crossings. For example, having mass 
transit set up so that there wasn't a lot of individual 
vehicular traffic, but with the carrot being for people to get 
pre-cleared if they take mass transit, allowing them to cross 
the border rather expeditiously in both directions, would 
eliminate a lot of tie-up at the border; would reduce the 
amount of personnel needed; and have folks with ability to 
travel very rapidly.
    Ms. Jackson Lee. Are you suggesting opening up or expanding 
mass transit that crosses the border? And are you suggesting 
that that would be a manner of evacuation?
    Mr. Slotnick. It could be both. It could be both, ma'am. 
But yes, I am suggesting that we consider pre-clearing folks, 
similar to some other programs like the CLEAR Program that we 
use here in the United States for folks that are traveling 
between TSA venues from airport to airport. They get pre-
cleared in a biometric fashion, so that they are able to 
transit the TSA rapidly--to have something set up like this at 
the 2010 Olympics to allow citizens from both sides to be able 
to cross rapidly during normal operations, as well as have 
expedited crossing in case of an emergency.
    As to intelligence fusion, it is absolutely key. It is a 
critical component. Again, I would like to reemphasize the need 
for private sector involvement in that. We see a lot of 
information that comes across that is geared toward Federal 
consumption, toward law enforcement consumption.
    But not only does private sector need to be aware of what 
is going on, but private sector has a tremendous awareness of 
what is going on, because they have to deal with it to protect 
their enterprises on a daily basis. When you are protecting a 
Boeing enterprise or you are protecting a Microsoft enterprise, 
you are aware of a lot of the same things that Federal 
Government is and law enforcement. The opportunity to share 
that in both directions to me is key and critical.
    As to an office within DHS, I think instead of having to 
reinvent things at each event, the ability to have an office 
that would be in charge and have standardized protocols, 
lessons learned, the ability to learn from each event and 
improve those standard operating procedures and personalize 
them for each event would be greatly enhanced by having a 
central repository for those type of events.
    Ms. Jackson Lee. Thank you very much.
    I will now yield to the gentlelady from New York for her 
question.
    Ms. Clarke. Thank you, Madam Chair.
    My question is really a follow-up to the expedited border 
crossing. I just wanted to note that the Olympics tend to be 
international by nature, so that the processing, the Customs 
processing of individuals who may not be either citizens of 
Canada or the United States, has that been taken into 
consideration? For U.S. citizens, the CLEAR Program is great, 
but if you are not a citizen of the United States, it doesn't 
really facilitate the transporting of ease through TSA.
    Have you looked at the fact that we will have people from 
around the world attending this event, and the intricacies of 
having to deal with moving them about should something occur at 
the venue?
    Mr. Slotnick. Ma'am, I would say that it has been 
considered. Probably not many solutions have been developed. 
Funding is certainly lacking in that area, but the ability to 
have funding for collaborative exercises that allow those 
things to rise to the top where a gap analysis can be done and 
solutions developed, needs to happen. That has not happened 
yet.
    Ms. Clarke. Thank you very much, Madam Chair.
    Ms. Jackson Lee. Thank you very much.
    Let me add my appreciation on behalf of the committee and 
offer to say to you that we selected a day that couldn't have 
been more busier, if that is completely correct English, with 
members in a variety of hearings. You might hear a lot of 
buzzing of emails. These are other staff members asking us why 
we are not in the committee meeting that is going on across the 
campus, which is why Congresswoman Clarke and Congressman 
Lungren is now on the floor dealing with a matter, and a number 
of our Members are doing so.
    Having said that, we believe this is a very important first 
step and hearing. We are grateful to each of you for providing 
now the series of questions, and I think a roadmap going 
forward, one, not only for Vancouver, but really the question 
that we really have been studying over a period of time, large 
venues. We have had some staff assessments on a number of large 
venues. I don't think that we have reached the final 
conclusions that you have now contributed to in terms of what 
we need to be addressing.
    Mr. Arnot, your very frank and blunt statement, without I 
know any attempt to denigrate, but your frank comment on 
Atlanta is taken for what it is, as a help to us to realize 
that the incidences that we have had, whether or not one would 
say it would be totally preventable because terrorists are by 
their nature based upon surprise. But we do know that we have 
now the wake-up call, and now with more sensitivity after 9/11, 
to really be prepared.
    We have been very fortunate in all of the large events that 
we have engaged in as Americans, from whether it is a faith 
meeting with how many hundreds of thousands come to a faith 
event for good purposes, versus boxing opportunities and NASCAR 
and just plain old Rose Bowl activities where all the parents 
and everyone is gathered for a celebratory time.
    We need to be more conscious, and I do think we are going 
to look very closely at the idea of this designation in DHS 
because we need to be consulting with experts like yourself. We 
need to build a very tight team within the agency that has 
immediate response and activity and operational activity on all 
of these events, which frankly I believe certainly have 
probably been attended to by a number of law enforcement 
agencies.
    I can't imagine that some of our important law enforcement 
agencies are not engaged in some of these large venues. But 
again, how are they engaged? Are they on the day-of and that is 
the extent of their work? Then I think that is not enough. This 
hearing contributed to moving us forward along those lines.
    So let me again on behalf of the full committee, Mr. 
Thompson the Chairman, Mr. King the Ranking Member, and myself 
as the subcommittee Chair that has a great interest in this 
concept called critical infrastructure, thank you very much for 
your testimony and your patience today. We appreciate it.
    Any additional statements to be offered by our members can 
be submitted into the record. Let me do my follow-up so that we 
will make sure that everything is in order. The Members of the 
subcommittee may have additional questions for the witnesses, 
and we will ask you to respond expeditiously in writing to 
those questions. You will be assisted by the committee staff in 
case you want to know where those submissions can be made.
    This subcommittee looks forward to subsequent hearings and 
briefings on the security issues surrounding the 2010 Vancouver 
Olympics. As I previously indicated, now that you have brought 
us quite a bit of information and challenge, we will be looking 
at other large-venue events, and we will do so in the coming 
weeks and months. This continues to be an ongoing issue and a 
very important issue.
    Hearing no further business, the subcommittee now stands 
adjourned.
    [Whereupon, at 4:12 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
